Department of Homeland Security
   Ofﬁce of Inspector General

Information Technology Management Letter for the FY 2009 

         Federal Law Enforcement Training Center 

                 Financial Statement Audit 





OIG-10-83                                        April 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                          April 30, 2010

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the Federal Law
Enforcement Training Center financial statement audit as of September 30, 2009. It contains
observations and recommendations related to information technology internal control that were
summarized within the Independent Auditors’ Report, dated December 31, 2009 and represents
the separate limited distribution report mentioned in that report. The independent accounting
firm KPMG LLP (KPMG) performed the audit procedures at FLETC in support of the FLETC
FY 2009 consolidated financial statements and prepared this IT management letter. KPMG is
responsible for the attached IT management letter dated December 31, 2009, and the conclusions
expressed in it. We do not express opinions on FLETC’s consolidated financial statements or
internal control or conclusions on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Frank Deffer
                                     Assistant Inspector General
                                     Information Technology Audits
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036

December 31, 2009

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
Federal Law Enforcement Training Center

Chief Financial Officer
Federal Law Enforcement Training Center

Ladies and Gentlemen:
We have audited the consolidated balance sheets of the Federal Law Enforcement Training Center
(FLETC), a component of the U.S. Department of Homeland Security (DHS), as of September 30,
2009 and 2008, and the related consolidated statements of net cost, changes in net position, and the
combined statement of budgetary resources (hereinafter referred to as “consolidated financial
statements”) for the years then ended. In planning and performing our audit of the consolidated
financial statements of FLETC, in accordance with auditing standards generally accepted in the
United States of America, we considered FLETC’s internal control over financial reporting (internal
control) as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the consolidated financial statements but not for the purpose of expressing an opinion on the
effectiveness of FLETC’s internal control. Accordingly, we do not express an opinion on the
effectiveness of FLETC’s internal control.
In planning and performing our fiscal year 2009 audit, we considered FLETC’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of FLETC’s internal
control, determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. To achieve this purpose, we did
not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an
opinion on the effectiveness of FLETC’s internal control over financial reporting. Accordingly, we
do not express an opinion on the effectiveness of FLETC’s internal control over financial reporting.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.
Our audit of FLETC as of, and for the year ended, September 30, 2009 disclosed a material
weakness in the areas of information technology (IT) access controls, configuration management,
and security management. These matters are described in the IT General Control Findings by Audit
Area section of this letter.
The material weakness described above is presented in our Independent Auditors’ Report, dated
December 31, 2009. This letter represents the separate limited distribution report mentioned in that
report.



                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through Notice of Finding and Recommendations (NFRs). Our
audit procedures are designed primarily to enable us to form an opinion on the consolidated
financial statements, and therefore may not bring to light all weaknesses in policies or procedures
that may exist. We aim to use our knowledge of FLETC gained during our audit engagement to
make comments and suggestions that are intended to improve internal control over financial
reporting or result in other operating efficiencies.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key FLETC financial systems and IT infrastructure within the scope of the FY 2009
FLETC consolidated financial statement audit in Appendix A; a description of each internal control
finding in Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to certain additional matters have been presented in a separate letter to the Office of
Inspector General and the FLETC Director dated December 31, 2009.

This communication is intended solely for the information and use of DHS and FLETC
management, DHS Office of Inspector General, the Office of Management and Budget (OMB),
U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.

Very truly yours,
                             Department of Homeland Security
 

                        Federal Law Enforcement Training Center 

                         Information Technology Management Letter
                                    September 30, 2009



                   INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                    TABLE OF CONTENTS
                                                                                          Page

Objective, Scope, and Approach                                                             2


Summary of Findings and Recommendations                                                    3


IT General Control Findings by Audit Area                                                  4


  Findings Contributing to a Material Weakness in IT                                       4


       Access Controls and Configuration Management                                        4


       Security Management, Including After-Hours Physical Security Testing                5



Application Control Findings                                                               9

                                            APPENDICES
Appendix                                      Subject                                     Page

            Description of Key FLETC Financial Systems and IT Infrastructure within the
   A        Scope of the FY 2009 FLETC Consolidated Financial Statement Audit              10
            Engagement

   B        FY 2009 Notices of IT Findings and Recommendations at FLETC                    12

               - Notice of Findings and Recommendations – Definition of
                                                                                           13
                 Severity Ratings

            Status of Prior Year Notices of Findings and Recommendations and Comparison   19
   C
            to Current Year Notices of Findings and Recommendations at FLETC


   D        Management’s Comments and OIG Response                                         22


   E        Report Distribution                                                            23
                              Department of Homeland Security
 

                         Federal Law Enforcement Training Center 

                          Information Technology Management Letter
                                     September 30, 2009


                      OBJECTIVE, SCOPE, AND APPROACH
We were engaged to perform an audit of the Federal Law Enforcement Training Center’s (FLETC)
consolidated balance sheets of September 30, 2009 and 2008. In connection with our audit of
FLETC’s consolidated financial statements we performed an evaluation of information technology
general controls (ITGC) to assist in planning and performing our audit. The Federal Information
System Controls Audit Manual (FISCAM), issued by the Government Accountability Office
(GAO), formed the basis of our ITGC evaluation procedures. The scope of the ITGC evaluation is
described further in Appendix A.

The FISCAM was designed to inform financial auditors about IT controls and related audit
concerns to assist them in planning their audit work and to integrate the work of auditors with other
aspects of the consolidated financial statement audit. The FISCAM also provides guidance to IT
auditors when considering the scope and extent of review that generally should be performed when
evaluating general controls and the IT environment of a federal agency. The FISCAM defines the
following five control functions to be essential for the effective operation of the general IT controls
environment.

�	 Security Management (SM) – Controls that provide a framework and continuing cycle of
   activity for managing risk, developing security policies, assigning responsibilities, and
   monitoring the adequacy of computer-related security controls.
�	 Access Control (AC) – Controls that limit and or detect access to computer resources (data,
   programs, equipment, and facilities) and protect against unauthorized modification, loss, and
   disclosure.
�	 Configuration Management (CM) – Controls that help to prevent the implementation of
   unauthorized changes to information system resources (software programs and hardware
   configurations) and that provide reasonable assurance that systems are configured and operating
   securely and as intended.
�	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices. The technical security testing was performed both over the Internet
and from within selected FLETC facilities, and focused on test, development, and production
devices that directly support key general support systems.

�	 Application Controls (APC) - Application controls are the structure, policies, and procedures
   that apply to separate, individual application systems, such as accounts payable, inventory, or
   payroll.

We also performed application control tests on a limited number of FLETC’s financial systems and
applications. The application control testing was performed to assess the controls that support the
financial systems’ internal controls over the input, processing, and output of financial data and
transactions.


                                                 2
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                 Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009



         SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2009, FLETC took corrective action to address many of its prior year IT control
weaknesses. The upgrade of the Financial Accounting and Budgeting System (FABS, also called
Momentum) and the installation of new hardware near the end of FY 2008 improved the overall
security structure at FLETC. However, during FY 2009, we continued to identify IT general control
weaknesses that impacted FLETC’s financial data. The most significant control deficiencies from a
consolidated financial statement audit perspective related to controls over access and configuration
management and the weaknesses over physical security and security awareness. Collectively, these
IT control deficiencies limited FLETC’s ability to ensure that critical financial and operational data
were maintained in such a manner to ensure confidentiality, integrity, and availability. In addition,
these control deficiencies negatively impacted FLETC’s internal controls over financial reporting
and its operation. We consider these deficiencies to collectively represent a material weakness
under standards established by the American Institute of Certified Public Accountants (AICPA).
Based upon the results of our test work, we noted that FLETC also did not fully comply with the
requirements of the Federal Financial Management Improvement Act (FFMIA).
Of the 10 findings identified during our FY 2009 testing, 6 were new IT findings. These findings
represent control deficiencies in three of the five FISCAM key control areas. The control areas are
specifically, 1) lack of management and review of system audit logs, 2) ineffective account
management issues involving user profiles, new user access, active terminated user accounts,
generic user accounts, and lack of account recertifications, 3) inadequate configuration
management, and 4) inadequately trained personnel on basic security management policies and
procedures. These control deficiencies may increase the risk that the confidentiality, integrity, and
availability of system controls and FLETC financial data could be exploited thereby compromising
the integrity of financial data used by management as reported in FLETC’s consolidated financial
statements.
While the recommendations made by KPMG should be considered by FLETC, it is the ultimate
responsibility of FLETC management to determine the most appropriate method(s) for addressing
the weaknesses identified based upon their system capabilities and available resources.




                                                3
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                Department of Homeland Security
                        Federal Law Enforcement Training Center
                         Information Technology Management Letter
                                    September 30, 2009



          IT GENERAL CONTROL FINDINGS BY AUDIT AREA
Findings Contributing to a Material Weakness in IT
Conditions: During FY 2009, we noted the following IT general control and financial system
functionality deficiencies that in the aggregate are considered a material weakness.
1. Access Controls and Configuration Management:
   �	 Access and configuration management weaknesses on the Glynco Administrative Network
      (GAN) and the servers that support Momentum and the Student Information System (SIS).
      These weaknesses included default configuration settings, role and group policies, and weak
      password management. Note: Detailed vulnerability assessment results were previously
      provided to FLETC and included the risk level.
   �	 System Engineering Life Cycle (SELC) for Momentum is not finalized.
   �	 Momentum system software event audit logs are not being captured and reviewed.
   �	 Password configuration settings for Linux, which support Momentum system software, 

      allow 6 failed logon attempts before the account is locked. 

   �	 Momentum and the GAN security violation audit logs lack management review and signoff.
   �	 Momentum user profile creation or modification is not logged or tracked.
   �	 Weak logical access controls over the GAN were noted as follows:
           �	 The GAN prohibits password reuse for 6 generations, which does not meet the DHS
              4300A requirement of 8 password generations.
           �	 The GAN resets the account failed logon counter after 60 minutes, which does not
              meet the DHS 4300A requirement of 24 hours.
           �	 Generic user IDs, i.e. ‘vcusersqp’, ‘vcusersqlar’, ‘PACSUser’, ‘BESAdmin’, and
              other generic account descriptors were identified. In addition, several users have
              access to these accounts.
           �	 New user access authorization forms are not maintained.
           �	 Fourteen instances of active user accounts for terminated employees were identified.
           �	 A periodic review over GAN users is not performed.
   �	 Weak logical access controls over the SIS were noted as follows:
           �	 A history of 2 passwords is stored; this does not meet the DHS 4300A requirement
              of 8 remembered passwords.
           �	 SIS is configured to have a minimum password age of 5 days; this does not meet
              DHS 4300A requirements of 7 days.
           �	 SIS is not configured to reset the account failed logon counter, which does not meet
              the DHS 4300A requirement of a reset every 24 hours.
           �	 User lockout occurs after 6 invalid attempts (only 3 attempts permitted per DHS
              4300A).
           �	 System administrators share the ‘root’ username and password to perform
              administrative responsibilities.


                                              4
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                 Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009


           �	 A sample of audit logs that track changes to system data could not be provided.
           �	 Invalid user access attempts were not tracked and monitored until March 2009.
              Since this weakness was corrected during the fiscal year, no recommendation will be
              stated.
           �	 User profile creation is not tracked and a listing of profile creation dates could not
              be provided.
           �	 Evidence of periodic review of user accounts could not be provided.

2. 	 Security Management including After-Hours Physical Security Testing:

We performed after-hours physical security testing to identify risks related to non-technical aspects
of IT security. These non-technical IT security aspects included physical access to media and
equipment that housed financial data and information residing within a FLETC employee’s or
contractor’s work area, which could be used by others to gain unauthorized access to systems
housing financial information. The testing was performed at various FLETC locations that process
and/or maintain financial data. The specific results are listed as shown in the following table:

                                         FLETC Locations Tested
                    OIT Office,      Finance        BFD,        Telecommunications          Total
                     Building         Office,   Procurement, Facility, Building 94        Exceptions
                       681          Building 66   and SIS,                                 by Type
Exceptions Noted                                 Building 93
User Name and            1               9           21                53                     84
Passwords
For Official Use         2                1              0                  1                  4
Only (FOUO)
Keys/Badges              0                0              0                  7                  7
Personally               0               80              2                  1                 83
Identifiable
Information (PII)
Server Names/IP          0                0              0                  0                  0
Addresses
Laptops                  3                0              2                  1                  6
External Drives          0                0              0                  2                  2
Credit Cards             0               12              0                  0                 12
Classified               0                0              0                  0                 0
Documents
Other - Describe    2 users still     1 user still       0         1 user still logged         4
                    logged into      logged into                   into DHS systems
                       DHS          DHS systems                   without a screensaver
                      systems         without a
                     without a       screensaver
                    screensaver
Total Exceptions         8               103             25                66                 202
by Location




                                                     5
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                 Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009


Recommendations: We recommend that the FLETC Chief Information Officer (CIO) and Chief
Financial Officer (CFO), in coordination with the DHS Office of Chief Financial Officer and the
DHS Office of the Chief Information Officer, make the following improvements to FLETC’s
financial management systems and associated information technology security program:
Access Controls and Configuration Management:
    1.	 Redistribute procedures and train employees on continuously monitoring and mitigating
        vulnerabilities. In addition, we recommend that FLETC periodically monitor the existence
        of unnecessary services and protocols running on their servers and network devices, in
        addition to deploying patches.
    2.	 Perform vulnerability assessments and penetration tests on all office IT systems within
        FLETC, from a centrally managed location with a standardized reporting mechanism that
        allows for trending on a regularly scheduled basis in accordance with National Institute of
        Standards and Technology (NIST) guidance.

    3.	 Develop a more thorough approach to track and mitigate configuration management 

        vulnerabilities identified during monthly scans. FLETC should monitor the vulnerability 

        reports for necessary or required configuration changes to their environment. 


    4.	 Develop a process to verify that systems identified with “HIGH/MEDIUM Risk” 

        configuration vulnerabilities do not appear on subsequent monthly vulnerability scan 

        reports, unless they are verified and documented as a false-positive. All risks identified 

        during the monthly scans should be mitigated immediately and not be allowed to remain 

        dormant. 


    5.	 Enable audit logging over all Momentum system software and ensure that logs are 

        maintained and proactively reviewed by FLETC IT management. 


   6.	 	 Enforce existing FLETC policy and procedures over maintenance and review of 

         Momentum security violation logs. 


   7.	 	 Establish and implement procedures to document and review logs of auditable events on the
         GAN.

   8.	 	 Activate logs for monitoring Momentum user profile creation and modifications.

   9.	 	 Implement the corrective actions identified during the audit vulnerability assessment as 

         identified in the issued NFR of the audit. 


   10. Perform periodic scans of the FLETC network environment, including the financial 

       processing environment, for the identification of vulnerabilities, in accordance with NIST 

       SP 800-42, and implement corrective actions to mitigate the risks associated with any 

       vulnerabilities identified during periodic scans. 


   11. Establish a process to ensure that GAN and Linux (Momentum system software) are 

       configured to meet minimum DHS password configuration requirements. 



                                                6
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                  Department of Homeland Security
                          Federal Law Enforcement Training Center
                           Information Technology Management Letter
                                      September 30, 2009



    12. Remove all GAN and SIS generic/shared accounts and conduct periodic reviews of user
        access lists to ensure compliance.

    13. Establish and enforce procedures for the completion and maintenance of user access forms
        for GAN and SIS.

    14. Enforce procedures for the removal of transferred, and, or terminated users within the GAN
        upon their separation from FLETC.

    15. Establish and implement policies and procedures for recertification of GAN user privileges.
        This process should include a method to document user recertification and a process to
        maintain evidence of reviews.

    16. Establish a process to ensure the SIS is configured to meet minimum DHS password and
        system configuration requirements.

    17. Retain audit trail records in accordance with DHS policies in order to support potential
        incidents within the system, and for review of user privileges.

    18. FLETC has effectively implemented the DHS SELC as of April 2009. Therefore, no
        recommendation will be stated.

Security Management:
    1.	 Ensure that users are trained and aware of safeguarding login credentials, locking network
        sessions to DHS systems, and locking any sensitive information, media containing sensitive
        information, or data not suitable for public dissemination in secure locations when not in
        use.
    2.	 Effectively limit access to DHS buildings, rooms, work areas, spaces, and structures
        housing IT systems, equipment, and data to authorized personnel.

Cause and Effect

FLETC is not continuously monitoring their vulnerability assessment scans for configuration
management vulnerabilities. As a result, default system and application configuration installations
on the FLETC’s Glynco Administrative Network (GAN), Financial Accounting and Budgeting
System (FABS), and Student Information System (SIS) increase the possibility of compromise the
availability, integrity, and confidentiality of financial data on the network. This could jeopardize the
information system controls environment to security breaches, unauthorized access, service
interruptions, and denial of service attacks.

FLETC has been relying on the full implementation of the Security Information Management (SIM)
system, which will monitor Momentum system software and the GAN audit logs. However, this has
not occurred to date due to lack of staffing. In addition, due to the lack of management oversight,
the Momentum approval and security logs review procedures are not being adhered to. The lack of


                                                 7
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                 Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009


audit logs may cause security related incidents to go unnoticed and uninvestigated, thus allowing
potential unauthorized system software changes to deploy into the production environment.

FLETC management has not enabled the Momentum audit logging system setting, which would
capture user profile creation and modification. Without logging of new users and profile changes,
FLETC would be unaware of any unauthorized additions or changes to profiles within Momentum.
This could also lead to a violation of both separation of duties and least privilege principles in
practice.

Due to the lack of management oversight, GAN logical access controls and Momentum system
software access controls have not been strengthened to meet DHS IT security compliance. In
addition, FLETC management considers the SIS to have a low impact on operations; therefore,
sufficient controls have not been implemented. Having weak system access controls increases the
risk of unauthorized individuals gaining access to and improperly modifying or destroying data.
Also, having generic/shared user accounts on a production system reduces the audit and
accountability of users within the system. Without documenting and approving access forms to
applications, management is unaware of the system access an individual may possess. This could
lead to a violation of both separation of duties and least privilege principles. Additionally,
unauthorized users may obtain access to the systems. Without access review and recertification
procedures being formally documented, reviewers do not have an IT standard for effectively
conducting the recertification of GAN accounts. This could lead to the risk of potentially allowing
users to have account privileges that are needed no longer, or, initially should not have been
granted.

FLETC management has not ensured that personnel are adequately trained and aware of the basic
IT security requirements and policies described by DHS and FLETC to protect their login
credentials, lock network sessions to DHS systems, secure information system hardware, and
securely store/limit access to FOUO and PII data. The failure to control access to sensitive IT
resources and FLETC documentation potentially could result in the theft or destruction of FLETC
assets, unauthorized access to sensitive information, and disruptions in processing of FLETC
financial systems. Additionally, FLETC personnel who are not trained adequately to protect their
login credentials present an increased risk of unauthorized access to sensitive information from
external and internal threats.


Criteria: The Federal Information Security Management Act (FISMA) passed as part of the
Electronic Government Act of 2002, mandates that Federal entities maintain IT security programs in
accordance with OMB and NIST guidance. OMB Circular No. A-130, Management of Federal
Information Resources, and various NIST guidelines describe specific essential criteria for
maintaining effective general IT controls. FFMIA sets forth legislation prescribing policies and
standards for executive departments and agencies to follow in developing, operating, evaluating,
and reporting on financial management systems. The purpose of FFMIA is: (1) to provide for
consistency of accounting by an agency from one fiscal year to the next, and uniform accounting
standards throughout the Federal Government; (2) require Federal financial management systems to
support full disclosure of Federal financial data, including the full costs of Federal programs and
activities; (3) increase the accountability and credibility of federal financial management; (4)
improve performance, productivity and efficiency of Federal Government financial management;

                                               8
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                 Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009


and, (5) establish financial management systems to support controlling the cost of Federal
Government. We also assessed FLETC’s compliance with DHS Sensitive System Policy Directive
4300A.



                      APPLICATION CONTROL FINDINGS

We did not identify any findings in the area of application controls during the fiscal year 2009
FLETC consolidated financial statement audit engagement.

            MANAGEMENT COMMENTS AND OIG RESPONSE
We obtained written comments on a draft of this report from the FLETC CIO. Generally, the
FLETC agreed with all of our findings and recommendations. The FLETC has developed a
remediation plan to address these findings and recommendations. We have included a copy of the
comments in Appendix D.

OIG Response
We agree with the steps that FLETC management is taking to satisfy these recommendations.




                                                9
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                       Appendix A
                        Department of Homeland Security
                   Federal Law Enforcement Training Center
                    Information Technology Management Letter
                               September 30, 2009




                                Appendix A 


     Description of Key FLETC Financial Systems and IT 

    Infrastructure within the Scope of the FY 2009 FLETC 

            Consolidated Financial Statement Audit 





                                     10
Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                   Appendix A
                             Department of Homeland Security
                        Federal Law Enforcement Training Center
                         Information Technology Management Letter
                                    September 30, 2009



Below is a description of significant FLETC financial management systems and supporting IT
infrastructure included in the scope of the FY 2009 FLETC Consolidated Financial Statement Audit.

Location of Audit: FLETC Headquarters in Glynco, Georgia and the FLETC field office in
Cheltenham, Maryland.

Key Systems Subject to Audit:


   �	 Financial Accounting and Budgeting System (FABS) also called Momentum: FLETC’s
      core financial management system that processes financial documents generated by various
      FLETC divisions in support of procurement, payroll, budget and accounting activities. All
      financial, procurement and budgeting transactions where FLETC is involved are processed
      by Momentum.


   �	 Student Information System (SIS): The system captures and facilitates the FLETC student
      registration process and billing. SIS stores, processes, and transmits Sensitive But
      Unclassified (SBU) information, which includes individual student personal information.
      Additional data types include specific course information (e.g., course numbers, dates,
      associated agencies, locations, and billing costs).




                                             11
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                        Appendix B
                         Department of Homeland Security 

                    Federal Law Enforcement Training Center 

                     Information Technology Management Letter
                                September 30, 2009




                                     Appendix B


FY 2009 Notices of IT Findings and Recommendations at FLETC




                                      12
 Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                       Appendix B
                              Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009



Notices of Findings and Recommendations – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the FLETC Consolidated Financial Statement Audit.

      1 – Not substantial
 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.

These rating are provided to assist the FLETC in the development of corrective action plans for
remediation of the deficiency.




                                               13
  Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                                                                         Appendix B
                                                      Department of Homeland Security
 

                                                 Federal Law Enforcement Training Center 

                                                  Information Technology Management Letter
                                                             September 30, 2009

                                         Notification of Findings and Recommendations – Detail

                                                                                                                        New     Repeat     Severity
NFR #                           Condition                                         Recommendation
                                                                                                                        Issue    Issue      Rating
           We determined that SOP 4250, which has been in           We recommend that FLETC enable audit logging                  X           3
           effect for the entire fiscal year, was last updated on   over all Momentum system software and ensure
           May 12, 2009 and that FLETC has developed a              that logs are maintained and proactively reviewed
           manual control for the installation of system software   by management.
           for Momentum. Specifically, logs of file changes to
           the Momentum UNIX servers are reviewed monthly.
           Therefore, this condition of the prior weakness has
           been partially corrected.
FLETC­
           We also determined that FLETC is still in the process
IT-09-03
           of    implementing      the   Security    Information
           Management System (SIM) to compile audited events
           of Oracle and other system software for review by
           FLETC personnel.         FLETC management has
           confirmed that logs of Oracle are not being reviewed
           to identify potential anomalies or incidents. Due to
           the lack of audit logging procedures around system
           software for Momentum, this NFR will be reissued.

           We determined that FLETC has implemented DHS’s           As FLETC has effectively put into place                       X           3
           System Engineering Lifecycle (formally called SDLC)      procedures over the implementation of DHS’
           into their business processes, and that it is            SELC effective April 2009, no recommendation
           promulgated to personnel involved in the change          will be offered.
FLETC­     management process. However, we determined that
IT-09-04   implementation did not occur until April 2009. As a
           result, we will be reissuing this NFR with no
           recommendation since the condition has existed for a
           majority of the fiscal year.




                                                                         14
                         Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                                                                        Appendix B
                                                       Department of Homeland Security
 

                                                  Federal Law Enforcement Training Center 

                                                   Information Technology Management Letter
                                                              September 30, 2009

                                                                                                                       New     Repeat     Severity
NFR #                           Condition                                          Recommendation
                                                                                                                       Issue    Issue      Rating
           During the internal vulnerability assessment efforts of   Implement the corrective actions for        the             X           3
           FLETC’s Glynco Administrative Network (GAN),              recommendations listed within the NFR.
           Financial Accounting and Budgeting System (FABS),
           and Student Information System (SIS) systems we
           identified several High/ Medium Risk vulnerabilities,
           related to Configuration Management and Password
           Management.       We     confirmed      that  security
           configuration management weaknesses (i.e., default
FLETC­     configuration settings, role and group policies,
IT-09-26   password policy, and user account management)
           continue to exist on hosts supporting FLETC. The
           conditions are exploitable as an insider without
           specific knowledge of the operation of the system or
           the applications hosted on that system.          These
           conditions can be found in the table within the actual
           NFR.


           We determined that in January 2009, FLETC                 We recommend that FLETC enforce their policies              X           3
           implemented a Standard Operating Procedure (SOP)          and procedures for the maintenance and periodic
           #60 titled, “Monthly Review of Security and Approval      review of audit logs for Momentum.
           logs”, which requires management review and sign
           off.    However, FLETC was unable to provide
FLETC­
           documentation supporting the management review of
IT-09-31
           approval logs for April, May, June, and July. In
           addition, FLETC was unable to provide evidence of
           management review of the security violation logs for
           June and July 2009.




                                                                         15
                         Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                                                                      Appendix B
                                                     Department of Homeland Security
 

                                                Federal Law Enforcement Training Center 

                                                 Information Technology Management Letter
                                                            September 30, 2009

                                                                                                                     New     Repeat     Severity
NFR #                          Condition                                        Recommendation
                                                                                                                     Issue    Issue      Rating
           We determined that logs of auditable events in the      We recommend that FLETC establish and              X                    3
           LAN are not being reviewed to identify potential        implement procedures to document and review
           anomalies or incidents. FLETC is in the process of      logs of auditable events in the LAN.
           implementing SIM with the capabilities to manage
FLETC­
           logged auditable events for review by personnel. We
IT-09-33
           determined that while the SIM is being implemented,
           FLETC does not have an alternative procedure for the
           review of these logs.

           We determined that access control weaknesses existed    We recommend that FLETC activate the logs for      X                    3
           over the Momentum access authorizations for user        tracking the addition of new users and profile
FLETC­     profiles created or modified during the fiscal year.    changes to Momentum.
IT-09-34   Specifically, we learned that profile creation and
           modification is not tracked and a listing of events
           could not be provided.
           We noted several weaknesses with logical access         We recommend that FLETC Management:                X                    3
           controls related to GAN:
                                                                     � Establish a process to ensure the GAN is
             � The GAN is configured to prohibit password              configured to meet minimum DHS password
               reuse for 6 generations, which does not meet the        configuration requirements.
               DHS standard of 8 password generations.
                                                                     � Remove all generic/shared accounts and
             � The GAN is configured to reset the account failed       conduct period reviews of the user access
FLETC­         logon counter after 60 minutes, which does not          lists to ensure compliance.
IT-09-35       meet the DHS standard of 24 hours.
                                                                     � Establish and enforce procedures for the
             � Several user IDs were identified as having              completion and maintenance of user access
               excessive access.                                       forms for the GAN.

             � Supporting     documentation for new user             � Enforce procedures for the removal of
               authorizations to the GAN could only be provided        transferred/terminated users within the GAN
               for 10 users out of 25 users sampled.                   upon their separation from FLETC.



                                                                       16
                        Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                                                                          Appendix B
                                                      Department of Homeland Security
 

                                                 Federal Law Enforcement Training Center 

                                                  Information Technology Management Letter
                                                             September 30, 2009

                                                                                                                         New     Repeat     Severity
NFR #                           Condition                                            Recommendation
                                                                                                                         Issue    Issue      Rating
             � Fourteen separated employees still had active user      � Establish   and implement policies and
               accounts to the GAN.                                      procedures for recertification of GAN user
                                                                         privileges.
             � Formalized procedures are not in place for
                periodic reviews over GAN users.
           During our after hours physical testing, we identified   We recommend that FLETC management                    X                    3
           84 password discrepancies, 4 For Official Use Only       implement processes to:
           Violations, 7 unsecured ID badges/keys, 83 Personally      � Ensure that users are trained and aware of
           Identifiable Information violations, 6 unsecured              safeguarding login credentials, locking
           laptops, 2 unsecured external drives, 12 unsecured            network sessions to DHS systems, and
           credit cards, and 4 users logged into a system without        locking any sensitive information, media
FLETC­     an active screen saver set.                                   containing sensitive information, or data not
IT-09-36                                                                 suitable for public dissemination in secure
                                                                         locations when not in use.
                                                                      � Effectively limit access to DHS buildings,
                                                                         rooms, work areas, spaces, and structures
                                                                         housing IT systems, equipment, and data to
                                                                         authorized personnel.

           We noted several weaknesses relating to logical access   We recommend that FLETC management:                   X                    3
           controls for the SIS. Specifically, we determined the      � Establish a process to ensure the SIS is
           following:                                                   configured to meet minimum DHS password
             � SIS is configured to have a password history of 2        configuration requirements.
                passwords stored that does not meet the DHS           � Adjust system configuration settings to lock
                4300A requirement of 8 remembered passwords.            out users after 3 invalid logon attempts as
FLETC­
             � SIS is configured to have a minimum password             designated by DHS policies.
IT-09-37
                age of 5 days that does not meet DHS 4300A            � Remove all generic/shared accounts and
                requirements of 7 days.                                 conduct periodic reviews of the user access
             � SIS is not configured to reset the account failed        lists to ensure compliance.
                logon counter, which does not meet the DHS            � Retain audit trail records in accordance with
                4300A requirement of a reset every 24 hours.            DHS policies in order to support potential
             � Users were not locked out until after 6 invalid          incidents within the system, and for review of


                                                                         17
                         Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                                                                            Appendix B
                                                         Department of Homeland Security
 

                                                    Federal Law Enforcement Training Center 

                                                     Information Technology Management Letter
                                                                September 30, 2009

                                                                                                                           New     Repeat     Severity
NFR #                            Condition                                           Recommendation
                                                                                                                           Issue    Issue      Rating
                attempts to access the application.                         user privileges.
              � SIS system administrators share the ‘root’                � Activate tracking for the addition of new
                username and password to perform administrative             users to SIS.
                responsibilities.                                         � Since this weakness was corrected during the
              � A sample of audit logs that track changes to                fiscal year, no recommendation will be
                system data could not be provided.                          stated.
              � Invalid user access attempts were not tracked and
                monitored until March 2009. .
              � User profile creation is not tracked and a listing of
                profile creation dates could not be provided.
              � Evidence of periodic review of user accounts
                could not be provided.
           We determined that weak access controls exist over           We recommend that management establish a            X                    3
           Momentum’s system software. Specifically, we noted           process to ensure FLETC systems are configured
           that the password configuration settings for Linux,          to meet minimum DHS logical access
FLETC­                                                                  configuration requirements.
           which supports Momentum, is set to allow a user to
IT-09-38
           attempt to logon 6 times before the account is locked
           out.




                                                                            18
                          Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                              Appendix C
                           Department of Homeland Security
 

                      Federal Law Enforcement Training Center 

                       Information Technology Management Letter
                                  September 30, 2009




                                   Appendix C 


 Status of Prior Year Notices of Findings and Recommendations
 

                       and Comparison to
 

Current Year Notices of Findings and Recommendations at FLETC 





                                        19
   Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                                Appendix C
                              Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009

                                                                                             Disposition
NFR No.                                   Description                                  Closed      Repeat

FLETC-IT­   Momentum Configuration Management Needs Improvement
                                                                                         X
  08-01
FLETC-IT­   Procurement Desktop Configuration Management Needs Improvement
                                                                                         X
  08-02
FLETC-IT­   Installation of Momentum System Software is not Logged or Reviewed
                                                                                                    09-03
  08-03
FLETC-IT­   The SDLC for Momentum is not Finalized
                                                                                                    09-04
  08-04
FLETC-IT­   Momentum Backups are not Tested
                                                                                         X
  08-05
FLETC-IT­   The Momentum Contingency Plan is not Completed
                                                                                         X
  08-06
FLETC-IT­   Incidents are not Tracked in an Incident Response Management System
                                                                                         X
  08-07
FLETC-IT­   Lack of Policies and Procedures over Incompatible Duties within
                                                                                         X
  08-08     Procurement Desktop
FLETC-IT­   Telecom Room Access Controls Need Improvement
                                                                                         X
  08-09
FLETC-IT­   Momentum and Procurement Desktop Access Controls Need Improvement
                                                                                         X
  08-10
FLETC-IT­   IT Security Awareness Training is in Draft Form
                                                                                         X
  08-11
FLETC-IT­   Policies and Procedures over Mobile Code Technologies are not
                                                                                         X
  08-12     Developed
FLETC-IT­   Policies and Procedures for Review of Momentum Audit Logs are not
                                                                                         X
  08-13     Developed
FLETC-IT­   Policies and Procedures for Restricting Access to Momentum System
                                                                                         X
  08-14     Software are not Developed
FLETC-IT­   Policies and Procedures for Segregating Incompatible Duties in
                                                                                         X
  08-15     Momentum are not Developed
FLETC-IT­   Policies and Procedures over VoIP Technologies are not Developed
                                                                                         X
  08-16
FLETC-IT­   Background Investigations for Contractors are not Consistently Performed
                                                                                         X
  08-17
FLETC-IT­   Procurement Desktop Audit Logs Need Improvement
                                                                                         X
  08-18
FLETC-IT­   Access to FLETC LAN is not Effectively Controlled
                                                                                         X
  08-20
FLETC-IT­   FLETC Manual 4300: IT System Security Program and Policy are not
                                                                                         X
  08-21     Finalized
FLETC-IT­   Access Controls over Procurement Desktop are not Effective
                                                                                         X
  08-22
FLETC-IT­   Lack of Procedures for Recertifying Procurement Desktop Users
                                                                                         X
  08-23


                                                 20
    Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                               Appendix C
                              Department of Homeland Security
                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2009

                                                                                            Disposition
NFR No.                                   Description                                 Closed      Repeat

FLETC-IT­   Momentum/Procurement Desktop Contingency Plan is not Maintained at
                                                                                        X
  08-24     the Alternate Processing Site
FLETC-IT­   Policies and Procedures over Anti-Virus Software for Servers and System
                                                                                        X
  08-25     Maintenance are not Finalized
FLETC-IT­   Configuration Management Weaknesses on the Procurement Desktop,
                                                                                                   09-26
  08-26     Momentum, and GSS
FLETC-IT­   Patch Management Weaknesses on Procurement Desktop and GSS
                                                                                        X
  08-27
FLETC-IT­   Procurement Desktop Backups are not Tested
                                                                                        X
  08-29
FLETC-IT­   Momentum Users are Granted Inappropriate Super User Access
                                                                                        X
  08-30
FLETC-IT­   Momentum Security Violation Events are not Reviewed
                                                                                                   09-31
  08-31
FLETC-IT­   Momentum Segregation of Duties Controls are not Effective
                                                                                        X
  08-32




                                                21
    Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                                                                           Appendix D
                             Department of Homeland Security 

                        Federal Law Enforcement Training Center 

                         Information Technology Management Letter
                                    September 30, 2009


                                                                                            Federal Law Enforcement Training Center
                                                                                            V. S. Department of Homeland Security
                                                                                            1131 Chapel Crossing Road
                                                                                            Glynco, Georgia 31524


                                                                 ..," ~::i~:.~~g:~~;t-",
                                                                 ~                     ~    Homeland
                                                                                            Security
                                             March 29, 2010


   MEMORANDUM FOR:               Frank Deffer
                                 Assistant Inspector General
                                 Information Technology Audits

   FROM                          Sandy H.  pe~~
                                 Assistant Di~ri'ChiefInformation Officer
                                 Chief Information Officer Directorate

   SUBJECT:                      Response to Draft Audit Report - Information Technology
                                 Management Letter for the FY2009 Federal Law Enforcement
                                 Training Center (FLETC) Financial Statement Audit

   The Federal Law Enforcement Training Center (FLETC) appreciates your efforts in assessing the
   effectiveness of information technology (IT) general controls for FLETC's financial processing
   environment and supporting IT infrastructure. As always, the FLETC welcomes your observations
   and recommendations for ensuring a secure and compliant operational environment.

   We have completed our review of the draft Office ofInspector General, Information Technology
   Management Letter for the FY2009 Federal Law Enforcement Training Center Financial Statement
   Audit and concur with the Notice of Findings and Recommendations (NFRs). The FLETC has
   made progress by addressing many of its prior year's IT control weaknesses. However, it is
   understood that additional corrective action is needed to address the remaining findings and the six
   new IT recommendations which collectively represent a material weakness.

   The FLETC continues to improve and enhance its financial and overall IT security controls in an
   effort to resolve deficiencies identified in the report.

   Point of contact for additional information or questions is the FLETC Chief Information Security
   Officer, Jeffery W. Johnson, (912) 267-2136.

   cc:   Alan Titus, FLETC Chief Financial Officer




                                                                                           www.fletc.gov




                                                 22
Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
                                                                           Appendix E
                        Department of Homeland Security
 

                   Federal Law Enforcement Training Center 

                    Information Technology Management Letter
                               September 30, 2009


              Report Distribution

              Department of Homeland Security

              Secretary
              Deputy Secretary
              General Counsel
              Chief of Staff
              Deputy Chief of Staff
              Executive Secretariat
              Under Secretary, Management
              Director, FLETC
              DHS Chief Information Officer
              DHS Chief Financial Officer
              Chief Financial Officer, FLETC
              Chief Information Officer, FLETC
              DHS Chief Information Security Officer
              Assistant Secretary, Policy
              Assistant Secretary for Public Affairs
              Assistant Secretary for Legislative Affairs
              DHS GAO OIG Audit Liaison
              Chief Information Officer, Audit Liaison
              Audit Liaison, FLETC

              Office of Management and Budget

              Chief, Homeland Security Branch
              DHS OIG Budget Examiner

              Congress

              Congressional Oversight and Appropriations Committees as Appropriate




                                       23
Information Technology Management Letter for the FY 2009 FLETC Financial Statement Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
